U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                    Bureau of the Census


           Review of Special Population
        Enumerations and Questionnaire
                     Assistance Centers
    Final Report No. ESD-12593-0-0001/September 2000




         PUBLIC RELEASE
                                                                 o4_/
                                                                                            UNITED
                                                                                            The     Inspector
                                                                                           Washington
                                                                                                             71STATES DEPARTMENT

                                                                                                                D.C.
                                                                                                                         General
                                                                                                                       20230
                                                                                                                                                                      COMMERCE

                                                                   4VE$




     SEP                2000




MEMORANDUM                         FOR              Kenneth        Prewitt

                                                    Director

                                                    Bureau        of the Census




FROM                                                Johnnie        Fr



SUBJECT                                             Review         of Spe        a         opulation          Enumerations

                                                       and Questio                   ire   Assistance           Centers

                                                    Report       No       ESD-12593-O-0001



We     have completed our review                       of the Census Bureaus                       special       population          enumerations           and

questionnaire           assistance          centers.     The      purpose         of our review                was     to evaluate         the effectiveness             of

special     population          enumeration            procedures          and questionnaire                    assistance         centers.       We    reviewed

applicable laws              regulations         policies        and procedures                  examined            selected      files     and records and

reviewed appropriate                  documentation.               OIG     teams observed                     enumerator        training        and the enumerations

of special places              interviewed          regional personnel                 local      census        office    employees             and    special     population

enumerators.             We    also    visited      questionnaire              assistance         centers        and interviewed              staff     Our      review        was

conducted          at   bureau headquarters                 in   Suitland        Maiyland               the Regional           Census Center              and    local    census

offices     in   Boston and           local     census        offices     in   Atlanta          Denver          Houston and                Seattle.




Our     review      revealed       no   significant           conditions meriting                 additional           OIG     recommendations.                  However             we
did find     several      issues      warranting            your   attention               An   insufficient           amount       of time was allowed                  for


training         with just four hours               scheduled       for    enumerators                 to    complete pre-employment                      paperwork            and

receive     their       enumeration          training.        Moreover much of                     this       four-hour       session        was used to complete the

paperwork          necessary          for    employment            leaving        little    or no time for training                   for    the enumerations                  As
result     the local      offices       had    to   either       add    additional          hours       of    training       or send enumerators                out   without

adequate         training.




Late      delivery      of supplies meant                              materials often arrived                         the training                                                 the
                                                       training                                                   at                         sites just     day before
start     of traming which did not allow                         instructors          adequate              time to familiarize            themselves       with      the

materials before             presenting         them     to    the class.        Numerous               corrections          to the training          workbooks            were
also    received        just prior to training              sessions.          Also        at   each        of the   sites    we    visited--Atlanta             GA       Boston
MA Denver CO                    Houston          TX      and Seattle WA--local                         offices       had not received             the quantity           of

supplies and forms               they needed.            The     shortage         of materials required                   local     offices      to   spend the time and

money       to photocopy              forms     and    to     borrow      supplies from other kits in order to complete enumerations.

An     additional       complication            occurred         where      there was               shortage           of long form questionnaires                       Not     only
did the office           staff      have       to   photocopy questionnaires                        for    the enumeration             but the responses               on each

photocopied            long form had to                  later      be copied             by hand onto        original        questionnaires.



As we         assessed        selected         aspects of the bureaus                       special      population         enumerations               we      found   that    some
shelters        and soup kitchens                   were      missed even though the bureau had worked with                                            local    governments
and community-based                       organizations                such       as   homeless advocacy                  groups     in identifying             and updating             the

list   of service        locations          to      be enumerated.                 However          officials      of several organizations that provide

community             services        to the hard-to-enumerate                            said they were           never    given      the opportunity            to identify

special       places      and        as     result       their       soup kitchens            had been missed.                The    director          of one multi-service

center        said that       although           she had called             the local       census        office     repeatedly        to inform         them     that her

organization           had           homeless          shelter       and     to    request       that    the shelter       be enumerated                no enumerators

visited       the   facility.




The     effectiveness               of questionnaire                assistance         centers      was not        evident.      We        found         wide variance              in


usage      at   centers         some were              well attended               while     others       were closed          early    for      lack of customers.                 The

centers         located        in   heavily minority                neighborhoods                received       the most        traffic.         However         other centers

had few         clients       when we            visited with           staff      advising       us that     they were        busy        for   the    first   few weeks           after


opening but had very few                            clients       in late   March.



At     this   point      in   the 2000           decennial           we     have no additional recommendations                               to address          these issues.

However             we    believe         that      the bureau should                  consider         our observations          on    special        population

enumerations              and questionnaire                   assistance           centers     in   planning        for    the 2010        decennial.



Please give           me        call      on   202         482-4661               or Charles        Tegeler        Director       Economics              and    Statistics      Audit

Division         at   202           482-2395            if   you have any              further      questions        about     the audit.         We         appreciate       the

assistance          of Census Bureau                   officials       and        staff   during        the audit.




                For    previous           OIG        recommendations addressing                            these issues        see the following                reports

Bureau          of the        Census Columbia Dress Rehearsal Experience                                             Suggests        Changes            to   Improve
Results         of the 2000 Decennial                        Census Department                      of Commerce Office of Inspector                             General       ESD
 10783-8-0001                 September              1998           Bureau         of the Census Sacramento                      Dress Rehearsal

Experience Suggests                       Changes            to   Improve          Results     of the 2000 Decennial                   Census Department of
Commerce              Office        of Inspector              General ESD-10784-8-0001                             September           1998.
